Nos. 19-251 and 19-255

IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA,
Attorney General of California,
THOMAS MORE LAW CENTER,

Petitioner,

v.
XAVIER BECERRA,
Attorney General of California,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 1st day of March 2021, that The Electronic Frontier
Foundation, The Freedom to Read Foundation, The National Coalition Against
Censorship, People United for Privacy Foundation, Woodhull Freedom Foundation,
and Defending Rights & Dissent as Amici Curiae in Support of Petitioners contains
6,038 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

____________________________
BRIAN T. BURGESS
GOODWIN PROCTER LLP
1900 N Street NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
March 1, 2021

Counsel of Record for Amici Curiae

2

